EXHIBIT 1

Case: 18-11728

Date Filed: 09/23/2019

Page: 1 of 1

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit

No. 18-11728

District Court Docket No.
1:17-cv-22091-KMW.
BkcyNo. 3 4-bkc-36362-AJC
hi re: VIKTORIA BENKOVITCH,

Debtor.

VIKTORIA BENKOVITCH,
Plaintiff - Appellant,
versus
DEUTSCHE BANK NATIONAL TRUST CO.,
Defendant - Appellee.

Appeal from the United States District Court for the
Southern District of Florida

JUDGMENT
It is hereby ordered, adjudged, and decreed that the Opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: September 23, 2019
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuanna H. Clark

Case: 18-11728

Date Filed: 09/23/2019

Page: 1 of 2

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-11728

D.C. Docket No. l:17-cv-22091-KMW,
BkcyNo. 14-bkc-36362-AJC
In re: VIKTORIA BENKOVITCH,
Debtor.

VIKTORIA BENKOVITCH,
Plaintiff-Appellant,
versus
DEUTSCHE BANK NATIONAL TRUST CO.,
Defendant-Appellee.

Appeal from the United States District Court
for the Southern District of Florida
(September 23,2019)
Before ROSENBAUM, GRANT and HULL, Circuit Judges.
PER CURIAM:

Case: 18-11728

Date Filed: 09/23/2019

Page: 2 of 2

After oral argument and careful review of the record, we find no reversible
error in the district court’s March 30, 2018 order, affirming the bankruptcy court’s
orders granting summary judgment in favor of defendant-appellee Deutsche Bank
National Trust Company, granting defendant-appellee’s motion to dismiss and
dismissing plaintiff-appellant Viktoria Benkovitch’s adversarial complaint with
prejudice, and denying plaintiff-appellant’s emergency motion for reconsideration.
AFFIRMED.

2

I

EXHIBIT 2

Case: 18-11728 • Date Filed: 12/16/2019

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-11728-GG
In re: VIKTORIA BENKOVITCH,
Debtor.

VIKTORIA BENKOVITCH,
Plaintiff - Appellant,
versus
DEUTSCHE BANK NATIONAL TRUST CO.,
Defendant - Appellee,
Appeal from the United States District Court
for the Southern District of Florida
ON PETITIQNfSI FOR REHEARING AND PETIT10N/S1 FOR REHEARING EN BANC
BEFORE: ROSENBAUM, GRANT and HULL, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active sendee on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition For
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

